        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Office of Science's
Management of Information
Technology Resources




DOE/IG-0831                      November 2009
                                 Department of Energy
                                    Washington, DC 20585
                                       November 20, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 Audit Report on "The Office of Science's Management of Information
                         Technology Resources"

BACKGROUND

The Department of Energy's Office of Science (Science) and its facility contractors are
aggressive users of information technology (IT) to support fundamental research in areas
such as energy, environmental remediation and computational sciences. Of its $4 billion
Fiscal Year 2008 budget, Science spent about $287 million to manage its IT program.
This included cyber security activities, acquisition of hardware and software, and support
service costs used to maintain the operating environments necessary to support the
missions of the program.

Prior Office of Inspector General reports have identified various issues with Science's
management of its IT programs and resources. For instance, our report on Facility
Contractor Acquisition and Management of Information Technology Hardware
(DOE/IG-0768, June 2007) noted that the Science sites reviewed spent more than
necessary when acquiring IT hardware. In another example, our review of The
Department's Efforts to Implement Common Information Technology Services at
Headquarters (DOE/IG-0763, March 2007) disclosed that Science's reluctance to adopt
the Department of Energy Common Operating Environment (DOE-COE) at Headquarters
contributed to the Department's inability to fully realize potential cost savings through
consolidation and economies of scale. In light of the magnitude of the Office of Science
IT program and previously identified program weaknesses, we initiated this audit to
determine whether Science adequately managed its IT resources.

RESULTS OF AUDIT

Science had taken a number of actions to improve its cyber security posture and align its
program to Federal requirements. Yet, our review disclosed that it had not taken some
basic steps to enhance security and reduce costs. In particular, we found that:

     •   For their non-scientific computing environments, all seven of the field sites
         reviewed (two Federal, five contractor) had implemented security configurations
         that were less stringent than those included in the Federal Desktop Core
         Configuration. This configuration was designed by the National Institute of
         Standards and Technology and its use was mandated by the Office of Management
         and Budget;
                                                 2


     •   Although we previously highlighted weaknesses and recommended corrective
         actions, Science still had not fully established or enforced IT hardware standards
         for acquiring hardware such as desktop and laptop computers or related
         peripherals, contributing to significant unnecessary expenditures; and,

     •   While we have noted in a series of past reports that significant savings could be
         realized from aggregating demand for IT services and products across the
         enterprise, Science had not implemented a common infrastructure for users at its
         Federal sites and continued to maintain an IT environment independent of the
         Department's Common IT Operating Environment.

The weaknesses identified were attributable, at least in part, to a lack of adequate policies
and procedures for ensuring effective cyber security and hardware acquisition practices.
In addition, Science had not effectively monitored the performance of its field sites to
ensure that previously reported internal control weaknesses were addressed and had not
implemented an appropriate mechanism to track its IT-related costs.

Without improvements, Science may be unable to realize the benefits of improved
security over its information systems, reduce costs associated with hardware acquisition,
and lower IT support costs through consolidation of services. In particular, we
determined that Science could potentially realize savings of more than $3.3 million over
the next three years by better controlling hardware costs and implementing standards for
certain equipment. Furthermore, Science could continue to pay for duplicative IT support
services and fail to take advantage of opportunities to lower costs and apply potential
savings to mission-related work.

During the course of our audit work, we learned from Science officials that they had
initiated the process of revising the Program Cyber Security Plan to better clarify its
policy for implementing Federal cyber security requirements. In addition, we noted that
the Oak Ridge National Laboratory had taken action to establish and enforce hardware
standards on both its administrative and scientific workforce. Although these actions are
positive steps, additional action is needed to strengthen Science's IT program. To that
end, our report contains several recommendations that, if fully implemented, should help
Science improve the management of its IT resources.

MANAGEMENT REACTION

Management generally concurred with the first three recommendations, but did not
concur with our recommendation that it evaluate joining the Department's common IT
environment. Management indicated that it planned to address many of the issues
identified in our report. However, management believed that its decision not to
participate in DOE-COE was appropriately justified. Management's comments are
included in their entirety in Appendix 3.

Attachment
                                  3



cc: Deputy Secretary
    Chief of Staff
    Under Secretary for Science
    Chief Information Officer
REPORT ON THE OFFICE OF SCIENCE'S MANAGEMENT OF
INFORMATION TECHNOLOGY RESOURCES


TABLE OF
CONTENTS

Science Information Technology Management Program

Details of Finding ................................................................................................................1

Recommendations and Comments.....................................................................................10


Appendices

1.    Objective, Scope, and Methodology ..........................................................................13

2.    Prior Reports...............................................................................................................15

3.    Management Comments.............................................................................................16
Science Information Technology Management Program

Management of          The Office of Science (Science) had dedicated $287 million in
Information Technology Fiscal Year (FY) 2008 to information technology (IT) activities
Resources              including, among other things, cyber security activities,
                       acquisition of IT hardware and software, and maintaining IT
                       services necessary to support the missions of the program.
                       However, our review of seven sites and Headquarters disclosed
                       that Science had not adequately managed its IT resources. In
                       particular, we found that none of the sites reviewed had fully
                       implemented the Office of Management and Budget's (OMB)
                       mandated initiative for enhancing security configurations on
                       their information systems. In addition, Science had not always
                       established or enforced IT hardware standards and it spent
                       significantly more than necessary to acquire hardware.
                       Furthermore, Science had not implemented a common support
                       services infrastructure for users at its Federal sites and
                       continued to maintain an IT environment independent of the
                       Department of Energy Common Operating Environment
                       (DOE-COE).

                                           Secure System Configurations

                           The Federal Desktop Core Configuration (FDCC) was
                           designed by the National Institute of Standards and Technology
                           (NIST) to improve overall cyber security and reduce IT costs at
                           Federal agencies. We recognize that FDCC is only one part of
                           an organization's strong defense-in-depth program. However,
                           despite the benefits of FDCC and the OMB mandate to either
                           implement FDCC settings on agency systems by February 1,
                           2008, or document why deviations from the settings were
                           necessary, all seven field sites reviewed had implemented
                           security configuration settings that were less stringent than
                           those required by the FDCC. In addition, although Science
                           Headquarters had documented its rationale for deviating from
                           the FDCC configuration, none of the seven field sites had
                           identified and documented their deviations, as required.

                           While six of seven field sites reviewed had implemented
                           security configurations that were based on benchmarks
                           developed by the widely recognized Center for Internet
                           Security (CIS), we found that all seven of the sites had
                           established configuration settings such as password settings,
                           audit policy changes, encryption settings, or logon controls,
                           that were less stringent than required by the FDCC. For
                           example:




________________________________________________________________
Page 1                                            Details of Finding
                         •   The Oak Ridge National Laboratory (ORNL) had
                             developed its own security configuration standard that
                             was not based on a nationally recognized standard such
                             as those developed by CIS or NIST. As such, the site's
                             standard configuration settings conformed to less than
                             50 percent of FDCC requirements. For instance,
                             although the FDCC required that encryption algorithms
                             compliant with the Federal Information Processing
                             Standards issued by NIST be used, ORNL had not
                             defined this setting in its minimum security
                             configuration standards. Notably, ORNL officials
                             recognized the need for more secure configurations and
                             had begun piloting the FDCC settings on 500, or more
                             than 20 percent, of its administrative desktops;

                         •   At the Fermi National Accelerator Laboratory (FNAL),
                             17 of 36 desktop configuration settings sampled were
                             less rigorous than required by the FDCC. For example,
                             FNAL did not log successful changes to its system
                             audit policies even though the FDCC required that an
                             audit entry be generated when a change to user rights or
                             audit policies was successful, an action that could help
                             detect unauthorized access to systems and data; and,

                         •   At Lawrence Berkeley National Laboratory (LBNL),
                             there were 168 instances where LBNL's established
                             configuration settings differed from those required by
                             the FDCC. Although certain of the differences may
                             have enhanced security, 18 of 36 settings sampled were
                             less stringent than FDCC, including the requirement to
                             rename default settings for system administrator and
                             guest accounts. Leaving the default system
                             administrator account name unchanged increases the
                             risk that an attacker or unauthorized user could
                             successfully log on to the system.

                      Although deviations to configuration settings are necessary to
                      account for varying operational environments such as research
                      and development, OMB instructed agency Chief Information
                      Officers to provide NIST with documentation of any deviations
                      from the FDCC configurations and the rationale for doing so.
                      However, we found that none of the seven field sites reviewed
                      had met this requirement. For example, officials at five sites
                      noted that since the use of FDCC settings was not required by
                      the Science Program Cyber Security Plan (PCSP), they had not
                      taken action to review the FDCC requirements and, therefore,

________________________________________________________________
Page 2                                            Details of Finding
                      had not documented the rationale to deviate. Although Science
                      had taken positive steps to strengthen IT security by correcting
                      cyber security weaknesses identified by various assessments,
                      we noted that successful implementation of the FDCC settings
                      should help to further strengthen its security posture by
                      reducing opportunities for hackers to access and exploit the
                      program's systems. In addition, the use of readily available and
                      easily implemented security settings such as those in the FDCC
                      can help reduce the risk of compromise without, in most cases,
                      adversely impacting the program's mission.

                                           IT Hardware Acquisition

                      Our prior report on Facility Contractor Acquisition and
                      Management of Information Technology Hardware (DOE/IG-
                      0768, June 2007) highlighted several issues and provided
                      recommendations to improve management of IT hardware
                      acquisition within the Department. In response to our
                      recommendations, Science officials issued a memorandum in
                      March 2008 directing field sites to establish IT hardware
                      standards and utilize such standards to streamline acquisitions.
                      However, we found that Science still had not implemented a
                      fully effective process for acquiring IT hardware. In particular,
                      Science had not always established and enforced IT hardware
                      standards – such as system configuration and acquisition
                      standards – for desktop and laptop computers or related
                      peripherals, resulting in higher than necessary expenditures.

                      We found that system configuration standards and the prices
                      paid for desktop and laptop computers and related peripheral
                      equipment varied widely at the sites reviewed. Specifically,
                      the average price paid for a desktop computer ranged from
                      $1,628 to $2,814 at the five laboratories reviewed, a price
                      variance of 73 percent. At FNAL and the SLAC National
                      Accelerator Laboratory (SLAC), neither of which had
                      developed standards for desktop computers, average prices
                      were $1,677 and $2,814, respectively. Notably, SLAC offered
                      to its users a customizable website recommending particular
                      desktop and laptop models. However, users were able to
                      configure their requested computers with a wide variety of
                      additional accessories and options, effectively diminishing the
                      benefits of using more standardized configurations.

                      Similar to findings noted in our prior report, we determined
                      that the lack of common hardware standards for desktops and
                      laptops contributed to an overall variance of $2.7 million in

________________________________________________________________
Page 3                                            Details of Finding
                      acquisition costs over the past three years. In addition, five of
                      seven sites reviewed had not established standards for IT
                      peripheral equipment such as monitors and printers. At SLAC,
                      prices paid for computer monitors that were the same or similar
                      to one another ranged from $256 to $1,236. While SLAC
                      officials disclosed that the average prices paid for three
                      different sizes of monitors ranged from $239 to $289,
                      acquisition data provided by the site demonstrated that the
                      actual average prices paid were higher than this for all three
                      sizes. In total, we found that the four facility contractor sites
                      reviewed could have saved over $125,000 in FY 2008 by
                      enforcing standards for computer monitors.

                      Even when sites had developed standards for IT hardware, such
                      standards were not always enforced. For instance, although
                      Argonne National Laboratory (ANL) established only one
                      recommended brand for its standard desktop and laptop
                      computers, we found that the laboratory had purchased
                      computers from 24 manufacturers over the past year. As noted
                      in our prior report and numerous industry best practices,
                      adherence to existing standards and the elimination of multiple
                      brands and models of computers has the potential to
                      significantly reduce support costs related to maintenance and
                      cyber security.

                      LBNL limited the application of its established desktop and
                      laptop standards to only a small group of administrative
                      personnel and not to the larger scientific workforce. In
                      particular, even though there were 5 recommended models of
                      computers, we noted that over 25 different models were
                      purchased in FY 2008. An official at the site informed us that
                      this condition existed because the hardware needs differed
                      from project to project. While we agree that needs may vary,
                      we noted that ORNL – which has scientific projects similar to
                      LBNL – established hardware standards and enforced them on
                      both its administrative and scientific workforce. Officials at
                      ORNL informed us that while the site allows for limited
                      exceptions to their standards, employees are required to follow
                      a rigid process to justify the purchase of non-standard
                      hardware.

                                            IT Support Services

                      Science had not implemented a common infrastructure for
                      users at its Federal sites and continued to maintain an IT
                      environment independent of DOE-COE. In particular, each of

________________________________________________________________
Page 4                                            Details of Finding
                      Science's three primary Federal sites implemented IT
                      infrastructures independent of one another. In addition,
                      Science maintained its reluctance to migrate to DOE-COE –
                      the Department's shared IT environment – an environment that
                      was designed to decrease costs, improve security, and enhance
                      user satisfaction. In short, Science maintained a bifurcated IT
                      infrastructure that did not take advantage of opportunities to
                      eliminate duplication. In addition, program officials had not
                      appropriately tracked the costs to support Federal users to help
                      ensure they were providing IT support services at the lowest
                      costs.

                      Despite having similar missions and computing requirements,
                      each of Science's three primary Federal sites at the Oak Ridge
                      Office (Oak Ridge), Chicago Office (Chicago), and
                      Headquarters had implemented IT support solutions
                      independent of one another. Although Science had the
                      opportunity to consolidate its Federal IT environment to
                      leverage potential cost savings, each of the three locations
                      utilized a different contractor to manage support services such
                      as helpdesk support, operated different IT infrastructures, and
                      purchased hardware and software from different vendors. In
                      particular, while opportunities existed for the three support
                      centers to integrate functions such as email infrastructures and
                      file servers, they each managed their own services at varying
                      costs.

                      In addition, each of the Science Federal facilities utilized
                      different contractors to support their helpdesk functions,
                      offsetting any potential savings that could have been realized
                      through consolidation. Each of the three Federal sites also
                      utilized different hardware and varying methods to acquire the
                      hardware. For instance, the average price of hardware for a
                      desktop package acquired in FY 2008 was $1,472 at Chicago,
                      but only $783 at Headquarters. Oak Ridge chose to lease its
                      desktop package at a cost of about $1,160 over a four-year
                      period rather than purchase equipment as the rest of the Federal
                      community had done. By consolidating into a single,
                      integrated IT infrastructure similar to other efforts such as
                      DOE-COE, it is likely that Science could realize reduced IT
                      costs through economies of scale, allowing for easier
                      management of its infrastructure, and potentially enhancing its
                      overall security posture.

                      While Science chose not to consolidate its Federal IT
                      environments, we found that the program was unable to

________________________________________________________________
Page 5                                            Details of Finding
                      document the true cost of providing IT support services to its
                      Federal users. Specifically, each of the three Federal facilities
                      reviewed tracked their support costs differently, making it
                      virtually impossible to compare the actual cost of supporting a
                      user. For instance, the reported monthly costs per user ranged
                      from $172 at Chicago to $351 at Oak Ridge. However, we
                      noted that Chicago had not included costs related to items such
                      as cyber security and network infrastructure in its calculations.
                      IT officials at Chicago commented that an attempt was made to
                      calculate IT support costs, but they were unable to conclude
                      what the true cost per user was. In addition, we found that
                      Science Headquarters excluded costs for items such as network
                      administration and security monitoring software in its
                      calculation.

                      Absent effective cost tracking, Science's methodology for
                      calculating IT support costs did not adequately support its
                      decision not to migrate to DOE-COE. Specifically, Science
                      disclosed that it calculated, based on DOE-COE cost
                      categories, the full-cost of its IT support program to be $203
                      per user per month at Headquarters as compared to $300
                      charged by the Office of the Chief Information Officer (OCIO)
                      under DOE-COE. However, as previously noted above, we
                      found that certain cost elements such as network administration
                      and security monitoring software were excluded from Science's
                      cost calculation. Based on available supporting documentation
                      reviewed, we determined that the actual cost paid for each
                      Science user at Headquarters could be as much as $350 each
                      month, or 17 percent more than DOE-COE. Our calculations
                      were based on information reported by Science to OMB in the
                      Department's Exhibit 53, as well as services worth about $52
                      per month per user that were provided to Science, but were
                      subsidized by the OCIO. Although Science officials
                      commented that they did not utilize all of the services provided
                      by the OCIO such as firewall operations and maintenance,
                      email filtering, and patch management, they did not notify the
                      OCIO so that these services could be discontinued. In addition,
                      Science planned to independently acquire many of the same
                      services already provided by the OCIO, potentially increasing
                      costs for the Department.

                      Contrary to the information noted above, Science officials
                      disclosed in preliminary comments to our report that they
                      continued to believe the program's costs for IT support services
                      and needed hardware were lower than DOE-COE. However,
                      even if Science was able to successfully calculate the full-cost,

________________________________________________________________
Page 6                                            Details of Finding
                      continuing its stand-alone position may not be advantageous to
                      the Department. As we have noted in a series of past reports
                      related to consolidation of IT services and products, significant
                      savings could have been realized from aggregating demand
                      across the enterprise. For instance, our report on The
                      Department's Efforts to Implement Common Information
                      Technology Services at Headquarters (DOE/IG-0763, March
                      2007) disclosed that organizations' reluctance to participate in
                      DOE-COE prevented the Department from realizing significant
                      savings through consolidation of common infrastructures.
                      Realizing these goals should, if properly executed, help to
                      eliminate redundancy at Headquarters and other locations and
                      further increase savings in a truly enterprise-wide DOE-COE
                      environment.

Policies and          These problems occurred because Science had not developed
Performance           adequate policies and procedures relevant to implementing the
Monitoring            FDCC and acquiring IT hardware. In addition, Science had not
                      effectively monitored the performance of its program elements
                      and had not implemented an appropriate mechanism to track IT
                      related costs.

                                          Policies and Procedures

                      Science Headquarters and its field sites had not developed
                      adequate policies and procedures for ensuring effective
                      implementation of the FDCC and IT hardware acquisition
                      practices. Specifically, Science had not incorporated into its
                      PCSP or site-level contracts the Federal requirement for
                      implementing FDCC configurations. While Science officials
                      directed field sites, through the management and operating
                      contracts, to utilize security configurations such as the FDCC
                      in all IT acquisitions, we found that the direction was neither
                      adequate nor followed by sites. In particular, the direction
                      required that the FDCC be applied to new IT acquisitions, but
                      it did not apply to computers acquired before the direction was
                      issued. In addition, the direction did not address the need to
                      document risk-based decisions to deviate from the FDCC, a
                      key requirement of OMB. Furthermore, we found that
                      although the purpose of the PCSP is to identify cyber security
                      requirements for Science and provide a consistent method of
                      ensuring security of information and systems across the
                      program, officials at five of seven field sites noted that the
                      FDCC was not required in the PCSP or site-level contracts, and
                      therefore it was not implemented in their environments.



________________________________________________________________
Page 7                                            Details of Finding
                      Additionally, Science had not developed and implemented
                      policies requiring establishment and enforcement of hardware
                      standards, and coordination of IT hardware purchases both
                      within the program, and across the Department. The lack of
                      such a policy resulted in an uncoordinated approach to
                      acquisition of hardware and support services at the sites
                      reviewed. Notably, Science officials disclosed that they had
                      initiated changes to the PCSP to provide more guidance on
                      Federal requirements and two of the sites reviewed had
                      initiated testing of the FDCC settings in their environment.

                                    Monitoring Performance and Costs

                      Science Headquarters had not adequately monitored
                      performance to ensure that prior recommendations made by the
                      Office of Inspector General were addressed and had not
                      implemented a process to track IT-related costs. In particular,
                      despite prior recommendations that the Department, including
                      Science, develop and implement hardware standards and utilize
                      such standards to streamline acquisitions, officials had not
                      ensured that these recommendations were adequately
                      addressed. For instance, an official at LBNL commented that
                      his site did not concur with the findings raised in the previous
                      audit, and therefore had not implemented any of the
                      recommendations. However, the LBNL official also noted that
                      the site had implemented certain cost savings measures such as
                      an automated system for purchasing hardware. Similarly, our
                      review of The Department's Efforts to Implement Common
                      Information Technology Services at Headquarters (DOE/IG-
                      0763, March 2007) recommended that the Department
                      complete migration of program elements to DOE-COE. At the
                      time, a request from Science for a waiver on migration was
                      disapproved by the then Deputy Secretary, but Science has
                      continued to resist. Although program officials noted that a
                      waiver was subsequently granted in February 2008, they were
                      unable to provide documentation to support this statement.

                      Officials also had not implemented a process to effectively
                      capture the total cost of providing IT support services. As
                      noted earlier, each of the three Federal sites reviewed tracked
                      their costs differently, effectively eliminating the ability to
                      compare the costs of the programs and determine whether they
                      were successful based on the amount of funds expended.
                      Furthermore, the lack of adequate cost information prevented
                      the program from developing a cost-benefit analysis to
                      determine whether migration to DOE-COE would be

________________________________________________________________
Page 8                                            Details of Finding
                       advantageous. Although Science Headquarters attempted to
                       align its costs categories with DOE-COE for comparison
                       purposes, neither Chicago nor Oak Ridge was able to provide
                       similar comparisons. Without a consistent methodology, both
                       the OCIO and Science were unable to determine who could
                       provide a more efficient IT support solution.

Information Security   Absent an effective IT management program, Science may be
and Cost Savings       unable to realize the benefits of improved security over its
Opportunities          information systems, reduce costs associated with hardware
                       acquisition, and lower IT support costs. For instance,
                       according to an analysis conducted by the National Security
                       Agency, as many as 90 percent of all vulnerabilities can be
                       eliminated through up-to-date patching and implementation of
                       secure configurations such as those included in the FDCC. In
                       addition, the Office of Health, Safety and Security recently
                       completed a review of Science sites that disclosed numerous
                       security vulnerabilities that could have been addressed through
                       stronger configurations, including better management of
                       network administrator password controls. In addition to the
                       security benefits, significant cost savings could be realized
                       through the implementation of standard configurations. For
                       example, the United States Air Force was able to reduce its IT
                       management costs by 30 percent and save $56 million by
                       deploying configuration standards similar to the FDCC on
                       more than 500,000 workstations. While the Department may
                       not be able to achieve identical savings, this example
                       demonstrates the likelihood that significant cost reductions
                       could be realized.

                       Furthermore, Science may continue to spend more than
                       necessary acquiring IT hardware and support services.
                       Specifically, we determined that Science could potentially
                       realize savings of more than $3.3 million over the next three
                       years at the sites reviewed by better controlling hardware costs
                       and implementing standards for certain equipment. In addition,
                       Science will continue to pay for duplicative IT support services
                       and fail to take advantage of opportunities to lower costs and
                       apply potential savings to mission-related work. An OCIO
                       official also told us that if Science was included in the DOE-
                       COE infrastructure, it could potentially reduce the overall cost
                       per user for each of the programs participating in the initiative
                       and enable the Department to fully realize the expected cost
                       savings of the DOE-COE initiative.




________________________________________________________________
Page 9                                            Details of Finding
RECOMMENDATIONS      To address the issues identified in this report, we recommend
                     that the Under Secretary for Science:

                        1. Include the FDCC in the Science program-level cyber
                           security policies and site-level contracts and ensure
                           implementation of the requirements, as appropriate;
                           and,

                        2. Require sites to establish and follow IT hardware
                           standards and coordinate purchases, where applicable,
                           to take advantage of volume discounts including the use
                           of enterprise-wide purchasing agreements.

                     To ensure that a uniform approach is consistently applied to
                     measure the cost-effectiveness of IT support programs, we also
                     recommend that the Under Secretary for Science, in
                     conjunction with the Department's Chief Information Officer:

                        3. Develop and implement a methodology for consistently
                           capturing and reporting common IT support costs; and,

                        4. Re-evaluate whether Science should leverage the DOE-
                           COE services.

MANAGEMENT           Science management generally concurred with the first three
REACTION             recommendations, but non-concurred with recommendation
                     four. In addition, management indicated that it planned to
                     address many of the issues identified in our report. However,
                     management indicated concerns with a number of assertions
                     made in our report. We have addressed management's
                     comments below and made technical changes to the report, as
                     appropriate. Management's comments are included in their
                     entirety in Appendix 3. The OCIO did not comment on the
                     report.

                     While management agreed with our recommendation to
                     implement the FDCC, as appropriate, it did not believe that the
                     FDCC set minimum security configuration requirements.
                     However, management noted that it plans to modify existing
                     site-level contracts to require the evaluation and
                     implementation of the FDCC.

                     Management disclosed that it supported the report's
                     recommendation to lower IT hardware acquisition costs and
                     implement hardware standards, as appropriate, to meet mission



________________________________________________________________
Page 10                             Recommendations and Comments
                     needs. However, Science disagreed with several of the report's
                     conclusions and noted that an analysis of the costs and benefits
                     of implementing standards must be considered. Management
                     also commented that it had established and enforced IT
                     hardware standards that meet local mission needs.
                     Furthermore, management stated that it would evaluate the
                     effectiveness of guidance issued in March 2008 to its federal
                     Site Offices related to the development and implementation of
                     hardware standards, and issue additional guidance, as
                     appropriate.

                     Management commented that it had evaluated the DOE-COE
                     model on numerous occasions, but believed it had implemented
                     a federated IT model that provided the best costs and service to
                     meet the mission needs of the program. Science disagreed with
                     the report's assertion that it did not provide costs that aligned
                     with DOE-COE for comparison and that the methodology of
                     tracking costs did not adequately support the decision not to
                     migrate to DOE-COE. Management pledged to work with the
                     Department's OCIO to ensure that a uniform approach is
                     applied to measure the cost-effectiveness of IT support
                     programs.

AUDITORS             Management's comments are generally responsive to the
COMMENTS             report's first three recommendations. However, we continue to
                     recommend that Science, in conjunction with the OCIO, re-
                     evaluate whether the program should leverage the DOE-COE
                     services. Although management commented that FDCC does
                     not set minimum requirements, OMB directed agencies to
                     adopt and implement, at a minimum, the FDCC configuration
                     settings on their systems, including those operated on their
                     behalf by contractors. While OMB allows deviations from the
                     FDCC, agencies are required to assess and implement the
                     FDCC in their environment to the extent possible and
                     document any deviations.

                     We commend management's support for lowering IT hardware
                     acquisition costs and implementing hardware standards.
                     However, as demonstrated by our audit work, Science had not
                     established and enforced hardware standards. Specifically, as
                     noted in the report, two sites reviewed had not established
                     standards for desktop computers. Five of seven sites reviewed
                     had not established standards for IT peripheral equipment such
                     as monitors and printers. Furthermore, we continue to note that
                     significant savings could be realized by the program through
                     the implementation of hardware standards.

________________________________________________________________
Page 11                                                Comments
                     Although Science indicated that it had implemented a federated
                     IT model, our review found that each of the federal sites
                     reviewed utilized different mechanisms for acquiring and
                     managing IT hardware and support services. In addition, as
                     demonstrated in our report, the methodology used by Science
                     Headquarters to calculate its costs was different from DOE-
                     COE and excluded costs for items such as network
                     administration and security monitoring software. Issues related
                     to the inability to track and compare support costs were also
                     identified at Chicago and Oak Ridge. Based on reviews
                     conducted by both the Office of Inspector General and industry
                     experts, we noted that significant savings could be realized by
                     moving towards shared services and a common infrastructure.




________________________________________________________________
Page 12                                                Comments
Appendix 1

OBJECTIVE             To determine whether the Office of Science (Science)
                      adequately managed its information technology (IT) resources.

SCOPE                 The audit was performed between October 2008 and August
                      2009 at the Department of Energy (Department) Headquarters
                      in Washington, DC, and Germantown, Maryland; the Argonne
                      National Laboratory and the Chicago Office, Argonne, Illinois;
                      the Fermi National Accelerator Laboratory, Batavia, Illinois;
                      the Lawrence Berkeley National Laboratory, Berkeley,
                      California; the SLAC National Accelerator Laboratory, Menlo
                      Park, California; and the Oak Ridge Office and Oak Ridge
                      National Laboratory, Oak Ridge, Tennessee.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed applicable laws and regulations, Department
                             of Energy (Department) directives, and Office of
                             Management and Budget guidance pertaining to cyber
                             security practices and acquisition of IT resources;

                         •   Reviewed prior reports issued by the Office of
                             Inspector General, the Government Accountability
                             Office, and the Department's Office of Health, Safety
                             and Security;

                         •   Reviewed numerous documents related to the
                             Department's management of hardware acquisition, as
                             well as cost and functionality of Science's IT support
                             services solutions;

                         •   Evaluated security configuration standards
                             implemented on certain operating systems;

                         •   Held discussions with program officials and personnel
                             from Department Headquarters and field sites reviewed;
                             and,

                         •   Selected numerous weaknesses identified in various
                             cyber security assessments to determine whether the
                             weaknesses were corrected in a timely manner.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.

________________________________________________________________
Page 13                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      We believe the evidence obtained provides a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      The audit included tests of internal controls and compliance
                      with laws and regulations to the extent necessary to satisfy the
                      audit objective. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies that
                      may have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 relevant to the
                      management of Science's information technology program.
                      We did not rely on computer-processed data to satisfy our audit
                      objective.

                      Management waived an exit conference.




________________________________________________________________
Page 14                            Objective, Scope, and Methodology
Appendix 2

                                     PRIOR REPORTS

•   Evaluation Report on The Department's Unclassified Cyber Security Program - 2008
    (DOE/IG-0801, September 2008). The Office of Inspector General (OIG) found that
    while the Department of Energy (Department) made positive accomplishments,
    additional action is required to further enhance the Department's unclassified cyber
    security program and help reduce risks to its systems and data. For instance, the review
    identified opportunities for improvements in areas such as certification and accreditation
    of systems, systems inventory, contingency planning, and segregation of duties. These
    internal control weaknesses existed, at least in part, because not all Department program
    organizations had revised and implemented policies incorporating Federal and
    Departmental cyber security requirements in a timely manner.

•   Audit Report on Facility Contractor Acquisition and Management of Information
    Technology Hardware (DOE/IG-0768, June 2007). The OIG review established that
    certain Department facility contractors had not adequately managed the acquisition and
    control of information technology (IT) hardware. A number of contractors had not
    consistently taken advantage of opportunities to reduce acquisition and support costs,
    addressed security concerns related to certain aging systems, or ensured that
    accountability was maintained over sensitive computers and devices. These problems
    occurred because the Department had not developed a coordinated approach to IT
    hardware acquisition, management, and control.

•   Audit Report on The Department's Efforts to Implement Common Information
    Technology Services at Headquarters (DOE/IG-0763, March 2007). The OIG identified
    that although the Department had made progress in implementing the Department of
    Energy's Common Operating Environment (DOE-COE) at Headquarters, it had not fully
    achieved the goals and objectives envisioned by the original initiative. Five major
    organizations, accounting for 40 percent of the user population, had not migrated to
    DOE-COE. Officials responsible for implementation did not always follow Department
    and Federal project management practices, such as developing formal migration plans
    and conducting requirements analyses.

•   Audit Report on Information Technology Support Services at the Department of Energy's
    Operating Contractors (DOE/IG-0725, April 2006). The Department continues to face a
    number of challenges related to contractor procured or furnished IT support services. In
    particular, contractors failed to take advantage of opportunities to aggregate demand to
    leverage or reduce IT support service costs. In addition, per user support costs varied
    substantially between contractor sites. A number of contractors did not actively capture
    or track functional IT support costs. In the absence of a framework, the Department did
    not require contractors to adopt other available methods for reducing costs such as
    coordinating with established consortium buying groups to consolidate demand and
    obtain volume discounts.




________________________________________________________________
Page 15                                              Prior Reports
Appendix 3



                                         Department of Energy
                                          Washington. DC 20585

                                             September 29, 2009


      MEMORANDUM FOR RICKEY R. J-IASS
                     DEPUTY INSPECTOR GENERAL FOlUDIT SERVICES
                     OFFICE OF INSPECTOR GENERtL

      FROM:                    JEFFREY T. SALMON      ~    111\ S}
                               DEPUTY DIRECTOR FOR R~URCE MANAGEMENT
                               OFFICE OF SCIENCE

      SUBJECT:                  Response to Inspector General's Draft Report, 'The Office of
                                Science's Management oflnfonllation Technology Resources."

      The Office of Science (SC) appreciates the opportunity to review and comment on the subject
      audit. The following rel1eets the views of the Office of Science. The Office of the Chief
      lnfomlation Officer (OClO) did not have comments on the subject audit.

      SC is commiued to implementing cyber security in a risk-based approach at SC Federal sites and
      at the National Laboratories, while ensuring it does not hinder the innovative research and
      development mission of the National Laboratories. SC generally concurs with the
      recommendation to implement the Federal Desktop Core Configuration, "as appropriate".

      SC supports the Report's recommendation to lower IT hardware acquisition costs and
      implementing hardware standards, as appropriate to meet the mission needs. However, SC
      respectfully disagrees with several of the Report's conclusions, The Report unfavorably
      compares the Lawrence Berkley National Laboratory (LBNL) to the Oak Ridge National
      Laboratory (ORNL) but it docs not provide analysis on the costs/benefits of the approach being
      used by each respective laboratory. The infonnation, the scientific productivity, the morale of the
      employees, and the costs to administer the program must be considered alongside the strategic
      and thoughtful approach bl;:ing used by each Laboratory to build systems and processes designed
      to support their diverse environment and maximally deliver productive technologies.
      Standardization at the National Laboratories to achieve potential cost savings should more
      accurately be compared to Tier 1 research environments, as the National Laboratories arc an
      environment that generates diverse ideas and computer needs.

      Argonne National Laboratory (ANL) purchases all equipment and supplies in accordance with its
      fundamental scientific mission. The Report docs not recognize that only 20% of the vendors used
      by ANL in a particular year receive 90% of ANL's dollar volume in computer purchases,
      Wherever possible, ANL uses its preferred vendors and contracts to supply computer equipment.
      Periodically, the scientific mission requires ANL to go outside of its prt':ferred vendors and
      contracts.

      SC has established and enforces IT hardware standards that meet the local mission needs. The
      Report docs not take into account the one-quarter refresh rate at Oak Ridge Office or the 100%




___________________________________________________________________
Page 16                                         Management Comments
Appendix 3 (continued)


                                                                                                        2


     refresh at SC 11eadquarters (HQ) that resulted in better pricing compared to the negotiated DOE
     pricing. Each year thc hardware vendors change hardware models multiple times during the year
     and modify their pricing. which explains the variation in price for the same item. It is more
     accurate to anal)'7.c the three or four year life cycle COSlS to acquire IT hardware, instead of
     comparing individual years.

     SC has evaluated thc DOE-COE model on numerous occasions and implemented a federated IT
     model lmd in doing SO has obtained the best costs and service to mect the mission needs of the
     program. SC disagrees wilh the Report's assertion that SC did not provide costs that align with
     DOE-COE for comparison and Ihe methodology of tracking costs did not adequately support the
     decision to not migrate to DOE-COE. Oak Ridge provided sufficient detail to the IG that aligned
     with the DOE-COE categories and Chicago's cost aligned with the categories at the time of
     original submission. The Report compares the " ... $300 charged by the Office of the Chief
     Information Offieer (OCIO).,.", but does not provide evidence this is the true cost under DOE-
     COE, nor that the per scat cost for the Department would be decreased by SC joining DOE-COE.
     The then SC Deputy Director of Resource Management met with the then Deputy Secretary and
     Chicflnfonnulion Offil:l:r ill fdJlUi1ly 2008 to discuss DOE-COE and the pricing for SC IlQ
     compared to DOE-COE. The result of the meeting was that SC would not be included in DOE-
     COE because the SC model was more cost effcctive,

     SC disagrees with the Report's claims that "significant savings could be realized" by
     modifying/consolidating IT purchasing and joining DOE-COE. 11le only savings noted is '·S3.3
     million o,'cr three years" which is 0.021% per year and explained by variations in a produc(s
     price over the course of a single year from a single vendor and including computer equipment
     specifically ordered to meet the scientific mission.

     SC continues to c\'aluale the IT costs for support and hardware. As part of its mission to deli"er
     open science and support basic scientific research, SC provides funding for the high-speed
     Energy Sdcncc Network (ESnet). The ESnet infrastructure is pan of (he overall SC direction to
     reduce COSIS and SC is evaluating the long-tenn approach to use ESnet to meet its mission needs,
     as all ofSC currently maintains connections to ESnet. This approach will reduce the
     infrastructure-related costs to SC and provide for a morc open environment to support the SC
     mission in support of the Department.

     Attached arc SC's responses to the facts presented, proposed recommendations, and estimated
     potemial monetary impact.

     Attachment

     C,
     Steve Binklcy/SC-1
     Patricia DehmerlSC-2
     George MnloshlSC-J
     ThomtlS PhanlSC-45




___________________________________________________________________
Page 17                                         Management Comments
                                                             IG Report No. DOE/IG-0831

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
